TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Attestation Review of the Internal
                      Revenue Service’s Fiscal Year 2010
                    Annual Accounting of Drug Control Funds
                           and Related Performance



                                         January 31, 2011

                              Reference Number: 2011-10-021




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  HIGHLIGHTS


ATTESTATION REVIEW OF THE                            Performance Summary Report to the Director of
INTERNAL REVENUE SERVICE’S                           the ONDCP. Further, the Circular requires that
FISCAL YEAR 2010 ANNUAL                              each report be provided to the agency’s
ACCOUNTING OF DRUG CONTROL                           Inspector General for the purpose of expressing
                                                     a conclusion about the reliability of each
FUNDS AND RELATED PERFORMANCE
                                                     assertion made in the report prior to its
                                                     submission.
Highlights                                           WHAT TIGTA FOUND

Final Report issued on January 31, 2011              Based on our review, nothing came to our
                                                     attention that caused us to believe that the
Highlights of Reference Number: 2011-10-021          assertions in the Detailed Accounting
to the Internal Revenue Service Chief Financial      Submission and Performance Summary Report
Officer and Chief, Criminal Investigation.           are not appropriately presented in all
                                                     material respects in accordance with
IMPACT ON TAXPAYERS                                  ONDCP-established criteria. The IRS
                                                     reported that it expended $61.3 million on
The Internal Revenue Service (IRS) reported          ONDCP-related activities and completed
that it expended $61.3 million on Office of          788 ONDCP-related investigations in Fiscal
National Drug Control Policy (ONDCP)-related         Year 2010. The IRS also reported it participated
activities and participated in 405 ONDCP-related     in 405 ONDCP-related cases that resulted in
cases that resulted in convictions in Fiscal Year    convictions, with an 82.3 percent conviction rate.
2010. Based on our review, nothing came to our
attention that caused us to believe that the         WHAT TIGTA RECOMMENDED
assertions in the Detailed Accounting
Submission and Performance Summary Report            TIGTA made no recommendations in the report.
are not appropriately presented in all material      However, key IRS officials reviewed this report
respects in accordance with ONDCP-                   prior to its issuance and agreed with the facts
established criteria. Complete and reliable          and conclusions presented.
financial and performance information is critical
to the IRS’s ability to accurately report on the
results of its operations to both internal and
external stakeholders, including taxpayers.
WHY TIGTA DID THE AUDIT
This review was conducted as required by the
ONDCP and the ONDCP Circular: Drug Control
Accounting, dated May 1, 2007. The National
Drug Control Program agencies are required to
submit to the Director of the ONDCP, not later
than February 1 of each year, a detailed
accounting of all funds expended (the ONDCP
Circular requires amounts obligated) during the
previous fiscal year. Agencies also need to
identify and document performance measure(s)
that justify the results associated with these
expenditures.
The Chief Financial Officer, or another
accountable senior level executive, of each
agency for which a Detailed Accounting
Submission is required, shall provide a
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          January 31, 2011


 MEMORANDUM FOR CHIEF FINANCIAL OFFICER
                CHIEF, CRIMINAL INVESTIGATION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Attestation Review of the Internal Revenue
                             Service’s Fiscal Year 2010 Annual Accounting of Drug Control Funds
                             and Related Performance (Audit # 201010021)

 This report presents the results of our attestation review of the Internal Revenue Service’s
 Fiscal Year 2010 Office of National Drug Control Policy Detailed Accounting Submission and
 Performance Summary Report (the Report). The purpose of this review was to express a
 conclusion about the reliability of each assertion made in the Report. This review was included
 in our Fiscal Year 2011 Annual Audit Plan and addresses the major management challenge of
 Leveraging Data to Improve Program Effectiveness and Reduce Costs. The Treasury Inspector
 General for Tax Administration made no recommendations as a result of the work performed
 during this review. However, key Internal Revenue Service officials reviewed this report prior to
 its issuance and agreed with the facts and conclusions presented.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report results. Please contact me at (202) 622-6510 if you have questions or
 Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
 Organizations), at (202) 622-8500.
                               Attestation Review of the Internal Revenue Service’s
                                      Fiscal Year 2010 Annual Accounting of
                                   Drug Control Funds and Related Performance




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Summary of the Attestation Review of the Fiscal Year 2010
          Office of National Drug Control Policy Detailed Accounting
          Submission and Performance Summary Report ........................................... Page 3

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 4
          Appendix II – Major Contributors to This Report ........................................ Page 6
          Appendix III – Report Distribution List ....................................................... Page 7
          Appendix IV – Internal Revenue Service’s Fiscal Year 2010 Detailed
          Accounting Submission and Related Performance Summary Report .......... Page 8
        Attestation Review of the Internal Revenue Service’s
               Fiscal Year 2010 Annual Accounting of
            Drug Control Funds and Related Performance




                  Abbreviations

FY          Fiscal Year
IRS         Internal Revenue Service
ONDCP       Office of National Drug Control Policy
                          Attestation Review of the Internal Revenue Service’s
                                 Fiscal Year 2010 Annual Accounting of
                              Drug Control Funds and Related Performance




                                            Background

The Anti-Drug Abuse Act of 19881 establishes as a
policy goal the creation of a drug-free America. A key
provision of the Act is the establishment of the Office of       National Drug Control Program
National Drug Control Policy (ONDCP) to set priorities,          agencies  are required to submit
                                                                  to the Director of the ONDCP,
implement a national strategy, and certify Federal              not later than February 1 of each
Government drug control budgets. The Internal                   year, a detailed accounting of all
Revenue Service (IRS) supports the National Drug                   funds expended during the
Control Strategy through its continued support of the                  previous fiscal year.
Organized Crime Drug Enforcement Task Force. The
mission of Criminal Investigation in Federal law
enforcement’s anti-drug efforts is to reduce or eliminate the financial gains (profits) of major
narcotics trafficking and money laundering organizations through the use of its unique financial
investigative expertise and statutory jurisdiction.
This review was conducted as required by the ONDCP2 and the ONDCP Circular: Drug Control
Accounting, dated May 1, 2007. The National Drug Control Program agencies3 are required to
submit to the Director of the ONDCP, not later than February 1 of each year, a detailed
accounting of all funds expended (the ONDCP Circular requires amounts obligated) during the
previous fiscal year. Agencies also need to identify and document performance measure(s) that
justify the results associated with these expenditures. The Chief Financial Officer, or another
accountable senior level executive, of each agency for which a Detailed Accounting Submission
is required shall provide a Performance Summary Report to the Director of the ONDCP.
Further, the Circular requires that each report be provided to the agency’s Inspector General for
the purpose of expressing a conclusion about the reliability of each assertion made in the report
prior to its submission. Beginning in Fiscal Year (FY) 2006, ONDCP funding became a part of
the IRS budget. In prior years, IRS-related ONDCP funds were reimbursed by the Department
of Justice.
This review was performed at the IRS Headquarters offices of the Chief Financial Officer and
Chief, Criminal Investigation, in Washington, D.C., during the period August 2010 through
January 2011. Our review was conducted in accordance with attestation standards established by
the American Institute of Certified Public Accountants. In general, our review procedures were
limited to inquiries and analytical procedures appropriate for an attestation review based upon

1
  Pub. L. No. 100-690, 102 Stat. 4181 (1988).
2
  21 U.S.C. Section 1704(d) (1998).
3
  A National Drug Control Program agency is defined as any agency that is responsible for implementing any aspect
of the National Drug Control Strategy.
                                                                                                         Page 1
                      Attestation Review of the Internal Revenue Service’s
                             Fiscal Year 2010 Annual Accounting of
                          Drug Control Funds and Related Performance



the criteria specified in the ONDCP Circular. Detailed information on our audit objective, scope,
and methodology is presented in Appendix I. Major contributors to this report are listed in
Appendix II.




                                                                                          Page 2
                       Attestation Review of the Internal Revenue Service’s
                              Fiscal Year 2010 Annual Accounting of
                           Drug Control Funds and Related Performance




                                 Results of Review

Summary of the Attestation Review of the Fiscal Year 2010 Office of
National Drug Control Policy Detailed Accounting Submission and
Performance Summary Report
We reviewed the assertions in the IRS’s ONDCP Detailed Accounting Submission and
Performance Summary Report (the Report) for FY 2010, which ended September 30, 2010,
(see Appendix IV). This Report was prepared pursuant to 21 U.S.C. Section 1704 (d) and the
ONDCP Circular: Drug Control Accounting, dated May 1, 2007. The IRS is responsible for
preparing the report. The IRS reported that it expended $61.3 million on ONDCP-related
activities and completed 788 ONDCP-related investigations in FY 2010. For FY 2010, the IRS
also reported it participated in 405 ONDCP-related cases that resulted in convictions, with an
82.3 percent conviction rate.
Our review was conducted in accordance with attestation standards established by the American
Institute of Certified Public Accountants. An attestation review is substantially less in scope
than an examination, the objective of which is the expression of an opinion on the ONDCP
Detailed Accounting Submission and Performance Summary Report. Accordingly, we do not
express such an opinion.
The Report assertions, as required by Section 6.b. of the ONDCP Circular, include statements
that the methodology used is reasonable and accurate, including explanations and documentation
of any estimation assumptions used; the methodology disclosed was the actual methodology
used; and the data presented are associated with obligations against a financial plan that reflects
changes, if made. The assertions, as required by Section 7.b. of the ONDCP Circular, also
include statements that the performance reporting system is appropriate and applied,
explanations for not meeting any performance targets are reasonable, and the methodology used
to establish performance targets is reasonable and applied. ONDCP-established criteria require
well-documented sources of data, documented and explained calculations, and complete and fair
presentation of data from financial systems.
Based on our review, nothing came to our attention that caused us to believe that the assertions in
the Report are not appropriately presented in all material respects in accordance with
ONDCP-established criteria.
While this report is an unrestricted public document, the information it contains is intended
solely for the use of the IRS, the United States Department of the Treasury, the ONDCP, and
Congress. It is not intended to be, and should not be, used by anyone other than these specified
parties.
                                                                                            Page 3
                      Attestation Review of the Internal Revenue Service’s
                             Fiscal Year 2010 Annual Accounting of
                          Drug Control Funds and Related Performance



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to perform an attestation review of the IRS’s reporting
of FY 2010 ONDCP expenditures and related performance for the purpose of expressing a
conclusion about the reliability of each assertion made in the Detailed Accounting Submission
and Performance Summary Report. To accomplish our objective, we:
I.     Obtained an understanding of the process used to prepare the FY 2010 Detailed
       Accounting Submission and Performance Summary Report.
       A. Discussed the process used to record ONDCP expenditures and performance
          information with responsible IRS personnel.
       B. Obtained documents such as written procedures and supporting worksheets that
          evidence the methodology used.
II.    Evaluated the reasonableness of the drug methodology process for detailed accounting
       submissions.
       A. Reviewed data supporting the Detailed Accounting Submission to establish its
          relationship to the amounts being reported.
       B. Verified whether all drug-related activities are reflected in the drug methodology.
III.   Performed sufficient verifications of reported obligations for detailed accounting
       submissions to support our conclusion on the reliability of the assertions.
       A. Verified that the Detailed Accounting Submission included all of the elements
          specified in Section 6 of the ONDCP Circular: Drug Control Accounting.
       B. Verified the mathematical accuracy of the obligations presented in the Table of
          FY 2010 Drug Control Obligations.
       C. Traced the information contained in the Table of FY 2010 Drug Control Obligations
          to the supporting documentation.
IV.    Evaluated the reasonableness of the methodology used to report performance information
       for National Drug Control Program activities.
       A. Reviewed data supporting the Performance Summary Report to establish its
          relationship to the National Drug Control Program activities.
       B. Verified whether all drug-related activities are reflected in the performance
          information.
                                                                                            Page 4
                    Attestation Review of the Internal Revenue Service’s
                           Fiscal Year 2010 Annual Accounting of
                        Drug Control Funds and Related Performance



V.   Performed sufficient verifications of reported performance information to support our
     conclusion on the reliability of the assertions.
     A. Verified that the Performance Summary Report included all of the elements specified
        in Section 7 of the ONDCP Circular: Drug Control Accounting.
     B. Verified the mathematical accuracy of the performance information presented.
     C. Traced the performance information presented to the supporting documentation.
     D. Reviewed the supporting documentation for reasonableness.




                                                                                       Page 5
                    Attestation Review of the Internal Revenue Service’s
                           Fiscal Year 2010 Annual Accounting of
                        Drug Control Funds and Related Performance



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jeffrey M. Jones, Director
Anthony J. Choma, Audit Manager
Angela Garner, Lead Auditor
Mary F. Herberger, Senior Auditor
Rashme Sawhney, Auditor




                                                                                   Page 6
                     Attestation Review of the Internal Revenue Service’s
                            Fiscal Year 2010 Annual Accounting of
                         Drug Control Funds and Related Performance



                                                                  Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Chief, Criminal Investigation SE:CI
Deputy Chief Financial Officer OS:CFO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Criminal Investigation SE:CI
       Chief Financial Officer OS:CFO




                                                                            Page 7
       Attestation Review of the Internal Revenue Service’s
              Fiscal Year 2010 Annual Accounting of
           Drug Control Funds and Related Performance



                                                    Appendix IV

Internal Revenue Service’s Fiscal Year 2010
    Detailed Accounting Submission and
   Related Performance Summary Report




                                                              Page 8
Attestation Review of the Internal Revenue Service’s
       Fiscal Year 2010 Annual Accounting of
    Drug Control Funds and Related Performance




                                                       Page 9
Attestation Review of the Internal Revenue Service’s
       Fiscal Year 2010 Annual Accounting of
    Drug Control Funds and Related Performance




                                                       Page 10
Attestation Review of the Internal Revenue Service’s
       Fiscal Year 2010 Annual Accounting of
    Drug Control Funds and Related Performance




                                                       Page 11
Attestation Review of the Internal Revenue Service’s
       Fiscal Year 2010 Annual Accounting of
    Drug Control Funds and Related Performance




                                                       Page 12
Attestation Review of the Internal Revenue Service’s
       Fiscal Year 2010 Annual Accounting of
    Drug Control Funds and Related Performance




                                                       Page 13
Attestation Review of the Internal Revenue Service’s
       Fiscal Year 2010 Annual Accounting of
    Drug Control Funds and Related Performance




                                                       Page 14
